IN THE
UNITED STATES SUPREME COURT

Michael B. White
Petitioner

Case:_____________
U.S. Supreme Court

v

Donald Knapp, Jr.
Koral Knapp
Respondents

Michigan Supreme Court 161638
Mich. Court of Appeals 346921
Saginaw County Circuit 18-039070-CH-5

Certificate of Service
for
Petition For Writ of Certiorari
Word Limit Certificate
Filing Fee: M.O. 26533154597
and
A Waiver Form Was Sent To Respondent
Per Court Rule The Waiver Form Is Not Being Filed With The Court
Per Covid’19 requirements and limitations, Michael B. White states, on this day,
March 16, 2021 he sent by one original of the above referenced documents by USPS
overnight delivery to:
Clerk’s Office, U.S. Supreme Court, 1 First Street NE, Washington, D.C. 20543
and by USPS tracking to:
Attorney Adam D. Flory (Attorney for Donald Knap, Jr. and Koral Knapp), Smith
Bovill, PC, 200 St. Andrews Road, Saginaw, MI 48638-5938.
40 additional copies are being sent to the Clerk of the U.S. Supreme Court by UPS,
however, due to Covid-19 there may be restricted or slowed pick-up and delivery.
March 16, 2021
Michael White, 11255 Block Road, Birch Run, MI 48415
Tel 989-780-2110 Email: mikewhite5558@gmail.com

RECEIVED
MAR 1 8 2021

